Veronica W. Ogunsula
9801 Apollo Drive, #6334 •Largo, Maryland • 240-486-1427 • nona.ogunsula@gmail.com

September 18, 2019

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
RE:

Typographical omission in Petition, Case #19-83

Dear Mr. Harris:
I am the Petitioner/Plaintiff in Veronica Ogunsula vs. Staffing Now, Inc, Case #19-83. I am sending this
letter to notify the Court that I discovered a typographical omission in the Petition for Writ of Certiorari
that was docketed on July 16, 2019.
Page "vi" lists the Statutes that are relevant to this case. The first statute should read "42 U.S.C. 2000e
et seq". The second statute listed should read "29 U.S.0 § 621 et seq". This correction also applies to
the reference to "Title VII of Civil Rights Act of 1964" on page 18.
The Court's consideration of these omissions and correction herein stated is greatly appreciated. You
may contact me at the information provided above if you have any questions.
Sincerely,

Veronica W. Oguns

RECEIVED
SFP 2 4 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

